TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    Key Tax Provisions Were Implemented
                     Correctly for the 2014 Filing Season



                                     September 19, 2014

                             Reference Number: 2014-40-077




This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
 and information determined to be restricted from public release has been redacted from this document.

Redaction Legend:
1 = Tax Return/Return Information
2 = Law Enforcement Tolerance


Phone Number / 202-622-6500
E-mail Address / TIGTACommunications@tigta.treas.gov
Website        / http://www.treasury.gov/tigta
                                                      HIGHLIGHTS


KEY TAX PROVISIONS WERE                                  prevented the issuance of more than
IMPLEMENTED CORRECTLY FOR                                $1.32 billion (88.9 percent) of those it identified.
THE 2014 FILING SEASON                                   The IRS also identified 63,087 potentially
                                                         fraudulent tax returns filed with prisoner Social
                                                         Security Numbers for screening.
Highlights                                               TIGTA’s review of the tax provisions that
                                                         created additional taxes or modified existing
Final Report issued on                                   tax provisions for the 2014 Filing Season found
September 19, 2014                                       that these key provisions were correctly
                                                         implemented. However, TIGTA did identify a
Highlights of Reference Number: 2014-40-077              problem in which some taxpayers’
to the Internal Revenue Service Commissioner             nonrefundable credit claims were being
for the Wage and Investment Division.                    improperly reduced due to employee error.
IMPACT ON TAXPAYERS                                      The IRS continues to offer more self-assistance
                                                         options that taxpayers can access 24 hours a
The filing season, defined as the period from            day, seven days a week. However, the IRS did
January 1 through mid-April, is critical for the         not always ensure that the self-help tools were
IRS because it is during this time that most             updated with the most current tax information
individuals file their income tax returns and            before the start of the filing season. In addition,
contact the IRS if they have questions about             the number of taxpayers assisted at IRS
specific laws or filing procedures.                      Taxpayer Assistance Centers and through the
WHY TIGTA DID THE AUDIT                                  telephone continues to decline.

Our overall objective was to evaluate whether            Finally, TIGTA found that some taxpayers and
the IRS timely and accurately processed                  return preparers continue to misuse the split
individual paper and electronically filed (e-filed)      refund option to direct a portion of a tax refund
tax returns during the 2014 Filing Season.               to a preparer for payment of services. TIGTA
                                                         also found that some paid tax return preparers
WHAT TIGTA FOUND                                         continue to be noncompliant with the Earned
                                                         Income Tax Credit due diligence requirements,
The closure of Government operations between             but the number has decreased substantially
October 1 and October 16, 2013, reduced the              when compared to previous filing seasons.
time the IRS had to implement tax law changes
and bring tax return processing systems online.          WHAT TIGTA RECOMMENDED
As a result, the IRS delayed the start of the filing
season from January 21 to January 31, 2014.              TIGTA recommended that the Commissioner,
                                                         Wage and Investment Division, review the
As of May 2, 2014, the IRS had received more             308,986 tax returns for which it appears the split
than 135.5 million tax returns – more than               refund option was used to inappropriately direct
117 million (86.4 percent) were e-filed and              a portion of the tax refund to the tax return
nearly 18.5 million (13.6 percent) were filed on         preparer, implement computer programming to
paper. The e-file volumes were 2.9 percent               systemically ensure that taxpayers’ claims for
higher than the volumes for the same period in           nonrefundable credits are allowed when
the 2013 Filing Season. The IRS had issued               applicable, ensure that Earned Income Tax
more than 99.9 million refunds totaling nearly           Credit due diligence penalties are assessed on
$269.5 billion.                                          all paid tax return preparers who do not comply
                                                         with the due diligence requirements, and ensure
The IRS reported that it identified and confirmed        that YouTube videos are updated with the most
236,313 fraudulent tax returns involving identity        current tax information.
theft as of April 30, 2014. Overall, the IRS
identified 268,233 tax returns with more than            The IRS agreed or partially agreed with three of
$1.48 billion claimed in fraudulent refunds and          TIGTA’s four recommendations.
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 19, 2014


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                       Michael E. McKenney
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Key Tax Provisions Were Implemented Correctly
                             for the 2014 Filing Season (Audit # 201440014)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) timely and accurately processed individual paper and electronically filed tax returns during
 the 2014 Filing Season. This audit is included in our Fiscal Year 2014 Annual Audit Plan and
 addresses the major management challenge of Implementing the Affordable Care Act and Other
 Tax Law Changes.
 Management’s complete response to the draft report is included in Appendix V.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. If you have any questions, please contact me or Russell Martin,
 Acting Assistant Inspector General for Audit (Returns Processing and Account Services).
                                           Key Tax Provisions Were Implemented
                                            Correctly for the 2014 Filing Season




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          Processing Tax Returns................................................................................. Page 4
                    Recommendations 1 and 2: .............................................. Page 12

                    Recommendation 3:........................................................ Page 13

          Detecting and Preventing Tax Refund Fraud................................................ Page 13
          Providing Customer Service ......................................................................... Page 16
                    Recommendation 4:........................................................ Page 24


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 25
          Appendix II – Major Contributors to This Report ........................................ Page 28
          Appendix III – Report Distribution List ....................................................... Page 29
          Appendix IV – Glossary of Terms ................................................................ Page 30
          Appendix V – Management’s Response to the Draft Report ....................... Page 32
                        Key Tax Provisions Were Implemented
                         Correctly for the 2014 Filing Season




                             Abbreviations

AGI                   Adjusted Gross Income
CADE 2                Customer Account Data Engine 2
e-file(d), e-filing   Electronically file(d); electronic filing
EITC                  Earned Income Tax Credit
IRS                   Internal Revenue Service
TAC                   Taxpayer Assistance Center
TIGTA                 Treasury Inspector General for Tax Administration
                                     Key Tax Provisions Were Implemented
                                      Correctly for the 2014 Filing Season




                                            Background

The annual tax return filing season1 is a critical period for the Internal Revenue Service (IRS)
because it is when most individuals file their income tax returns and contact the IRS if they have
questions about specific tax laws or filing procedures. As of May 2, 2014, the IRS received
more than 135.5 million individual income tax returns.
In addition, the IRS provided customer service assistance
via telephone, website, social media, and face-to-face               As of May 2, 2014, the IRS
assistance to millions of taxpayers.                             received more than 135.5 million
                                                                         individual income tax returns.
One of the challenges the IRS confronts each year in
processing tax returns is the implementation of new tax
law changes as well as changes resulting from expired
tax provisions. Before the filing season begins, the IRS must identify the tax law and
administrative changes affecting the upcoming filing season. Once identified, the IRS must
revise the various tax forms, instructions, and publications. It also must reprogram its computer
systems to ensure that tax returns are accurately processed. Errors in the IRS’s tax return
processing systems may delay tax refunds, affect the accuracy of taxpayer accounts, and/or result
in incorrect taxpayer notices.

Tax law changes affecting the 2014 Filing Season
       The Patient Protection and Affordable Care Act 2 – Enacted March 23, 2010, this act
        contains revenue provisions designed to generate an estimated $438 billion to help pay
        for the overall cost of health care reform. The provisions that created additional taxes or
        modified existing tax provisions for taxpayers filing their Tax Year 2013 tax returns
        include:
        o Adding a 3.8 percent surtax on net investment income for certain taxpayers. The
          threshold amount is based on filing status and is equal to: $250,000 for married filing
          jointly or qualifying widow(er); $125,000 for married filing separately; and $200,000
          for any other filing status.
        o Increasing the employee share of Medicare tax by an additional 0.9 percent of wages
          or self-employment income. The Additional Medicare Tax increases the employee
          share of Medicare tax by an additional 0.9 percent of covered wages in excess of
          threshold amounts based on the taxpayer’s filing status. The Additional Medicare

1
 See Appendix IV for a glossary of terms.
2
 Pub. L. No. 111-148, 124 Stat. 119 (2010) (codified as amended in scattered sections of the U.S. Code), as
amended by the Health Care and Education Reconciliation Act of 2010, Pub. L. No. 111-152, 124 Stat. 1029.
                                                                                                          Page 1
                                       Key Tax Provisions Were Implemented
                                        Correctly for the 2014 Filing Season



               Tax also increases Medicare tax on self-employment income by an additional
               0.9 percent of self-employment income in excess of the threshold amounts based on
               filing status. The threshold wage/income amounts by filing status are: $250,000 for
               married filing jointly or qualifying widow(er); $200,000 for single or head of
               household; and $125,000 for married filing separately.
           o Increasing the adjusted gross income (AGI) threshold for the medical expense
             deduction. In prior tax years, taxpayers who itemized their deductions could claim a
             deduction for qualified unreimbursed medical expenses that exceeded 7.5 percent of
             their AGI. Starting with Tax Year 2013, the percentage by which expenses must
             exceed the AGI was increased to 10 percent. The only exception to this rule is for
             taxpayers who are age 65 or older before the close of the tax year. Taxpayers in this
             situation may still apply the 7.5 percent rule through Tax Year 2016, at which time it
             will be 10 percent for all taxpayers.
          American Taxpayer Relief Act of 2012 3 – Enacted January 2, 2013, this act increased
           taxes for some taxpayers and generally extended or made permanent many of the tax
           provisions that were set to expire at the end of Calendar Year 2012 including:
           o Adding a 39.6 percent individual income tax rate for high-income earners. Income
             levels subject to the tax bracket differ based on filing status and are adjusted on a
             yearly basis for inflation. For Tax Year 2013, the income levels subject to the new
             tax rate by filing status are: $450,000 for married filing jointly or qualifying
             widow(er); $425,000 for head of household; $400,000 for single; and $225,000 for
             married filing separately.
           o Increasing the maximum rate on capital gains tax for high-income earners. The
             maximum rate was increased to 20 percent for certain individuals. The income levels
             subject to the increased rate differ based on filing status and are adjusted on a yearly
             basis for inflation. For Tax Year 2013, the income levels subject to the new rate by
             filing status are: $450,000 for married filing jointly or qualifying widow(er);
             $425,000 for head of household; $400,000 for single; and $225,000 for married filing
             separately.
           o Reinstating the limit on personal exemption. Income levels subject to the limitation
             differ based on filing status and are adjusted on a yearly basis for inflation. For Tax
             Year 2013, the income levels subject to the limitation by filing status are: $300,000
             for married filing jointly; $275,000 for head of household; $250,000 for single; and
             $150,000 for married filing separately.
           o Reinstating the limit on itemized deductions (Pease limitation). Income levels subject
             to the limitation differ based on filing status and are adjusted on a yearly basis for

3
    Pub. L. No. 112-240, 126 Stat. 2313 (2013).
                                                                                               Page 2
                                   Key Tax Provisions Were Implemented
                                    Correctly for the 2014 Filing Season



            inflation. For Tax Year 2013, the income levels subject to the limitation by filing
            status are: $300,000 for married filing jointly; $275,000 for head of household;
            $250,000 for single; and $150,000 for married filing separately.
        o Extending the American opportunity credit. Extended the credit up to $2,500 on
          $4,000 in qualified expenses incurred during the first four years of post-secondary or
          technical program education through Calendar Year 2017. Up to $1,000 of the credit
          is refundable.
        o Extending the Earned Income Tax Credit (EITC) for families with three or more
          qualifying children. Extended the higher EITC available for families with three or
          more qualifying children through Calendar Year 2017. For Tax Year 2013, the
          maximum EITC for a family with three or more qualifying children is $6,044.
        o Increasing the annual gift tax exclusion. For Tax Year 2013, up to $14,000 in gifts
          can be made tax free without affecting an individual’s lifetime estate and gift tax
          exclusion.
        o Extending the standard deduction and the 15 percent tax bracket for married filing
          jointly filers at double that of single filers. The standard deduction for married
          taxpayers filing as joint filers would have reverted to 167 percent of the standard
          deduction for single taxpayers.
       Federal Recognition of Same-Sex Marriage – On June 26, 2013, the U.S. Supreme
        Court struck down Section 3 of the Defense of Marriage Act4 in the case United States vs.
        Windsor, allowing the IRS to recognize same-sex marriage for Federal tax purposes. The
        ruling was applied retroactively, enabling affected taxpayers to amend prior year tax
        returns for years not closed by the statute of limitations.
The 2014 Filing Season results are being presented as of several dates between April 30 and
June 30, 2014, depending on when the data were available. This review was performed with
information obtained from the Wage and Investment Division Headquarters in Atlanta, Georgia;
the Wage and Investment Division Submission Processing function offices in Cincinnati, Ohio;
and the Information Technology organization Headquarters in Lanham, Maryland. We
conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.


4
 Defense of Marriage Act (DOMA) Pub. L. No. 104-199 110 Stat. 2419 (1996) (codified at 1 U.S.C. § 7 and
28 U.S.C. § 1738C).
                                                                                                      Page 3
                                Key Tax Provisions Were Implemented
                                 Correctly for the 2014 Filing Season




                                 Results of Review

Processing Tax Returns
The IRS originally planned to begin processing individual tax returns on January 21, 2014.
However, for the second consecutive year, the IRS delayed the start of the filing season. The
2014 Filing Season was delayed as a result of the closure of Government operations between
October 1 and October 16, 2013. On December 18, 2013, the IRS announced it was delaying the
start of the 2014 Filing Season until January 31, 2014, to allow adequate time to program and
test the more than 50 IRS systems needed to process tax returns. According to the IRS, the
October 2013 closure put preparations for the filing season nearly three weeks behind its already
tight timetable.
As of May 2, 2014, the IRS received more than 135.5 million tax returns and issued more than
$269 billion in refunds. A higher proportion of tax returns were filed electronically (e-filed) than
in the 2013 Filing Season. Figure 1 presents comparative filing season statistics as of
May 2, 2014.




                                                                                             Page 4
                                     Key Tax Provisions Were Implemented
                                      Correctly for the 2014 Filing Season



                       Figure 1: Comparative Filing Season Statistics
                                    (as of May 2, 2014)

                                                                  2013         2014
                                                                                              %
  Cumulative Filing Season Data                                  Actual       Actual
                                                                                            Change
                                                                (5-3-13)     (5-2-14)
  Individual Income Tax Returns

  Total Returns Received (000s)                                  133,804      135,503          1.3%
    Paper Returns Received (000s)                                 20,124       18,487         -8.1%
    E-Filed Returns Received (000s)                              113,680      117,016          2.9%
      Practitioner Prepared (000s)                                70,184       70,707          0.7%
      Home Computer (000s)                                        43,496       46,309          6.5%
      Free File (000s) (also in the Home Computer total)           2,871        3,155          9.9%
      Fillable Forms (000s) (also in the Home Computer total)    457,457      324,980         -29.0%
  Percent of Returns E-Filed                                      85.0%         86.4%          1.6%

  Refunds

   Total Number Issued (000s)                                     99,551       99,948          0.4%
   Total $ (in millions)                                        $264,420     $269,480          1.9%
   Average $                                                      $2,656       $2,696          1.5%
   Total Number of Direct Deposits (000s)                         79,226       79,622          0.5%
   Total Direct Deposit $ (in millions)                         $226,569     $226,990          0.2%
 Source: IRS 2014 Weekly Filing Season reports. Totals and percentages shown are rounded.

The IRS continues to modernize its filing season applications through the
Customer Account Data Engine (CADE) 2 database
The IRS indicated that it continued to modernize its filing season applications in Fiscal
Year 2014 under the CADE 2 program, with the full filing season deployment of the CADE 2
database in January 2014. Performance, data quality, and operational processes were tested
during Filing Season 2014 by running the initialized CADE 2 database in parallel with the
Individual Master File throughout the filing season, validating the data quality and system
performance. IRS management determined that the CADE 2 database performed as expected
during parallel processing. According to the IRS, it plans to use the CADE 2 database as the
source for downstream processing systems during the 2015 Filing Season.



                                                                                                  Page 5
                                Key Tax Provisions Were Implemented
                                 Correctly for the 2014 Filing Season



The e-filing rate as well as the use of home computers and the Free File Program
increased, whereas the use of the Free File Fillable Forms decreased
As of May 2, 2014, e-file volumes were 2.9 percent higher than the volumes for the same period
in the 2013 Filing Season. More taxpayers are preparing their own tax returns using a home
computer. For example, as of May 2, 2014, 39.6 percent of taxpayers used a home computer to
e-file their tax return compared to 38.3 percent for the same period in the 2013 Filing Season. In
addition, the number of individuals using the IRS’s Free File Program increased by 9.9 percent
from the 2013 Filing Season. The traditional IRS Free File Program is a free Federal online tax
preparation and e-filing program that enables eligible taxpayers to use commercial tax software
accessible for free through the IRS’s website, IRS.gov. The Free File Program was developed
through a partnership between the IRS and the Free File Alliance LLC (a group of private-sector
tax preparation companies).
However, participation in the IRS’s Free File Fillable Forms decreased to 324,980, a decrease of
29 percent from the 2013 Filing Season. Fillable Forms opens up the Free File Program to
nearly everyone, with no income limitations. The IRS attributes the decrease in the use of
Fillable Forms to the corresponding increase in the use of the traditional Free File Program. For
example, the IRS stated that the number of Fillable Form returns with an adjusted gross income
of $58,000 or less, which was the cutoff to qualify for the Free File Program decreased by
50 percent when compared to the 2013 Filing Season. The number of Fillable Form returns with
an adjusted gross income over $58,000 increased by 3.4 percent when compared to the
2013 Filing Season.

Use of the savings bond and split refund options continues to grow, but some
preparers are continuing to misuse the split refund option
Through May 1, 2014, tax refunds totaling nearly $18.5 million were converted into
47,071 savings bonds. In addition, 830,269 individuals chose to split tax refunds totaling more
than $3.6 billion between two or three different checking and savings accounts. Figure 2 shows
a comparison of taxpayers’ use of the split refund and savings bond options for Processing
Years 2013 and 2014 as of May 1, 2014.




                                                                                           Page 6
                                    Key Tax Provisions Were Implemented
                                     Correctly for the 2014 Filing Season



                     Figure 2: Use of Savings Bonds and Split Refunds
                            for Processing Years 2013 and 2014
                                    (as of May 1, 2014)

                 Savings Bonds                                2013 Actual       2014 Actual

                 Number of Bonds Requested                        46,806             47,071

                 Total Refunds to Bonds $ (in millions)            $19.3              $18.5

                 Split Refunds

                 Total Returns                                   766,465           830,269

                 Total Refunds Split $ (in millions)              $3,284             $3,602

               Source: Treasury Inspector General for Tax Administration (TIGTA) analysis of
               the IRS Individual Return Transaction File as of May 1, 2014. Totals are rounded.

Our analysis of Form 8888, Allocation of Refund (Including Savings Bond Purchases), found
that the potential misuse of the split refund option to pay tax return preparers for their services is
continuing. Form 8888 instructions state that the form is to be used only for the deposit of a tax
refund to an account in the taxpayer’s name. Taxpayers are not to use Form 8888 to direct a
portion of a tax refund to the tax return preparer for payment of services rendered or any other
purpose. As of May 1, 2014, taxpayers filed 564,416 tax returns with a Form 8888 requesting
direct deposits totaling more than $260 million into 36,337 bank accounts. Each of the
36,337 bank accounts we identified had three or more Form 8888 deposits from different
taxpayers into these accounts during this filing season. For example, 16 accounts had more than
1,000 deposits made to them. In addition, we determined that 308,986 (55 percent) of the
564,416 tax returns were prepared by paid tax return preparers, and 9,626 of the 36,337 bank
accounts listed on the Forms 8888 were associated with 7,736 paid tax return preparers.
During the 2013 Filing Season, TIGTA reported that it appeared paid preparers were misusing
the split refund option.5 TIGTA provided the IRS with 452 paid preparers associated with
248,027 direct deposits. The IRS reviewed the 452 paid preparers and as of February 13, 2014,
determined that 28 of them already had open criminal investigations or had been referred for
examination. The IRS chose not to pursue the remaining 424 preparers because it determined its
resources could be better used elsewhere.
IRS management also indicated that the IRS is developing a systemic restriction to limit the
number of deposits (three) to a single bank account. After three deposits to a single account,


5
 TIGTA, Ref. No. 2013-40-124, Late Legislation Delayed the Filing of Tax Returns and Issuance of Refunds for the
2013 Filing Season (Sept. 2013).
                                                                                                        Page 7
                                         Key Tax Provisions Were Implemented
                                          Correctly for the 2014 Filing Season



including situations in which refunds are split, the entire refund amount will be sent by paper
check to the taxpayer at the address of record. The change is expected to reduce the number of
preparers who inappropriately divert the client refund or the preparer fee into an account
controlled by the preparer. It is also expected to reduce identity theft and fraud. This systemic
restriction was not in place for the 2014 Filing Season. The IRS does expect to have the
systemic restriction process in place for the 2015 Filing Season.

Evaluation of tax provisions affected by Tax Year 2013 tax law changes
We assessed the accuracy of the IRS’s processing of individual tax returns affected by many of
the tax law changes that had an impact on Tax Year 2013. We determined whether the following
tax legislation was correctly implemented and/or whether the tax returns associated with the
legislation were correctly processed:
          Net Investment Income Tax and the Additional Medicare Tax. The IRS created two
           new forms, Form 8960, Net Investment Income Tax – Individuals, Estates, and Trusts,
           and Form 8959, Additional Medicare Tax, for taxpayers’ use in computing the new taxes
           contained in the Patient Protection and Affordable Care Act legislation. Our assessment
           of these forms and related instructions found that the forms result in an accurate
           computation of the Net Investment Income Tax and the Additional Medicare Tax. As of
           May 22, 2014, the IRS received more than 2 million tax returns reporting the Net
           Investment Income Tax, and as of May 29, 2014, the IRS received more than 2 million
           tax returns reporting the Additional Medicare Tax. Our analysis of a judgmental sample6
           of 40 tax returns reporting the Net Investment Income Tax and 40 tax returns reporting
           the Additional Medicare Tax received by the IRS between January 11 and April 26, 2014,
           found that the IRS correctly validated taxpayers’ computation of the tax when processing
           the tax return. Further analysis shows that most taxpayers who, based on information
           contained on the tax return, appear to be subject to these new taxes reported the tax on
           their tax return.
           The IRS rejected 582 returns because taxpayers had incorrectly entered a negative
           number on a specific line on Form 8960. This may be the result of the complexity of the
           Net Investment Income Tax computation as the number on this particular line could not
           be negative. However, the information/instructions provided to taxpayers with the form
           did not make this clear. The IRS will revise next year’s tax products to provide
           additional clarification to taxpayers to address this issue. In addition, the media reported
           that some tax preparation software used by preparers contained calculation errors that
           contributed to mistakes made by preparers on Form 8960. The IRS was aware of this
           problem but was not able to quantify the number of errors caused by the incorrect
           software. The IRS also determined that one of its filters would have incorrectly rejected
           some returns, but it disabled the filter before the filing season began.

6
    A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
                                                                                                                Page 8
                                Key Tax Provisions Were Implemented
                                 Correctly for the 2014 Filing Season



      New 39.6 percent individual income tax rate, the increased capital gains and dividend
       rate (20 percent), and the Pease limitation and personal exemption phase-out. Our
       analysis of a judgmental sample of 80 tax returns filed by high-income-earning taxpayers
       processed by the IRS between January 31 and March 27, 2014, that were affected by
       these three new provisions found that the IRS accurately verified taxpayers’ tax
       computations and identified potential noncompliance.
      Increased AGI threshold for the medical expense deduction. We found that the increase
       in the AGI threshold for the medical expense deduction was correctly implemented.
       Taxpayers under the age of 65 filing individual returns with claims for the medical
       expense deduction were subject to the new 10 percent rate while those taxpayers age 65
       or older filing returns were subject to the old 7.5 percent rule.
      Federal recognition of same-sex marriage. The IRS accurately implemented computer
       programming that will allow married couples of the same sex to file as married filing
       jointly. Our analysis of tax returns processed through May 8, 2014, found that married
       couples of the same sex were successfully able to file as married filing jointly.
However, our review of tax returns associated with some of the error notices sent to taxpayers
identified a problem in which nonrefundable credit claims were being improperly reduced by the
IRS. These credits include the dependent care credit, the credit for the elderly and disabled, the
adoption credit, the child tax credit, the credit for interest on certain home mortgages, etc. These
claims should not have been reduced as the American Taxpayer Relief Act of 2012 allowed
taxpayers to take nonrefundable credits to the full amount of the individual’s regular tax and
alternative minimum tax. We alerted the IRS to the errors on March 4, 2014. In their response,
dated March 24, 2014, IRS management stated that the credits were improperly reduced due to
employee error and took steps to correct the cases that were erroneously processed. The IRS
issued a formal caution to employees reminding them of the correct processing procedures. In
addition, IRS management stated that they will request a computer programming correction for
implementation in January 2016 that will systemically implement the legislative change.

Paid tax return preparers who file tax returns claiming the EITC without a
completed due diligence checklist decreased substantially
The IRS estimates that 22 to 26 percent, or between $13.3 billion and $15.6 billion, of EITC
payments were issued improperly in Fiscal Year 2013. The number of paid tax return preparers
who prepared tax returns claiming the EITC with a missing or incomplete Form 8867, Paid
Preparer’s Earned Income Credit Checklist, has declined significantly when compared to
Processing Year 2012. Figure 3 shows the number of tax return preparers the IRS identified
during the 2012 through 2014 Filing Seasons who were not compliant with the Form 8867
requirement.



                                                                                             Page 9
                                     Key Tax Provisions Were Implemented
                                      Correctly for the 2014 Filing Season



          Figure 3: Comparison of Preparer Noncompliance With Form 8867
                  Requirements – 2012 Through 2014 Filing Seasons
                               (as of May each year)7

                                                2012                 20138                  2014

          Noncompliant Preparers               48,162               122,133                29,623

          Number of Tax Returns9              533,817               708,298                75,346

        Source: IRS Wage and Investment Division research and analysis for the 2012 Filing Season.
        TIGTA analysis for the 2013 and 2014 Filing Seasons.

Since enactment of the Form 8867 requirement and the related due diligence penalty, the IRS has
conducted extensive outreach and education to inform paid preparers of the requirement. In
addition, the IRS has worked with tax return preparation software developers to include
requirements in their software applications that will assist tax return preparers in being compliant
with the Form 8867 requirement.
However, some tax return preparers continue to file tax returns claiming millions of dollars in
EITCs without a completed Form 8867, and the IRS has yet to assess the due diligence penalty.
As of May 3, 2014, we identified 29,623 paid tax return preparers filing 75,346 tax returns
claiming nearly $156.3 million in EITCs without a completed Form 8867. This equates to nearly
$37.7 million in penalties that the IRS can assess.
In October 2011, Congress increased the penalty for tax return preparers who do not comply with
the EITC due diligence rules from $100 to $500 effective January 1, 2012. According to the
House of Representatives report,10 the penalty was increased to deter noncompliance and for
budgetary offset purposes. Beginning with the 2012 Filing Season, paid tax return preparers who
prepare a tax return claiming the EITC must include a completed Form 8867 with the tax return.
Preparers who do not adhere to this requirement can be assessed a $500 due diligence penalty for
each tax return they submit with an incomplete or missing Form 8867.
       Internal Revenue Code Section 6695(g) states: Any person who is a tax return preparer
        with respect to any return or claim for refund who fails to comply with due diligence
        requirements imposed by the Secretary by regulations with respect to determining



7
  The 2012 Filing Season is through May 3, 2012; the 2013 Filing Season is through May 2, 2013; and the 2014
Filing Season was through May 1, 2014.
8
  According to the IRS, the increase in the number of noncompliant tax return preparers during the 2013 Filing
Season was due in part to errors in the software used to prepare tax returns.
9
  The number of tax returns for 2013 and 2014 includes both missing and incomplete Forms 8867.
10
   H.R. Rep. No. 112-239, at [20-21] (2011).
                                                                                                         Page 10
                                     Key Tax Provisions Were Implemented
                                      Correctly for the 2014 Filing Season



           eligibility for, or the amount of, the credit allowable by section 32 shall pay a penalty of
           $500 for each such failure.
          Section 1.6695–2 of Title 26 of the Code of Federal Regulations states: The tax return
           preparer must complete Form 8867, Paid Preparer’s Earned Income Credit Checklist, or
           such other form and such other information as may be prescribed by the Internal
           Revenue Service.
          Form 8867 states: If you checked “No” on line 20, 21, 22, 23, 24, or 25, you have not
           complied with all the due diligence requirements and may have to pay a $500 penalty for
           each failure to comply.
In both our 2012 and 2013 Filing Season reports, we raised concerns to the IRS regarding the
lack of assessment of the due diligence penalty against tax return preparers who do not comply
with the Form 8867 requirement.11 Figure 4 shows potential due diligence penalties the IRS
could have assessed on tax return preparers who did not comply with the Form 8867 requirement
during the 2012 and 2013 Filing Seasons.
     Figure 4: Potential Due Diligence Penalties That Could Have Been Assessed
           During the 2012 and 2013 Filing Seasons (as of May each year)12

          Filing                                                                 Potential        Penalties
         Season          Tax Returns13                EITC Claimed               Penalties        Assessed

          2012               533,817                 $1,541,031,460            $266,908,500            $0

          2013               708,298                 $2,042,003,113            $354,149,000            $0

          2014                 75,346                 $156,299,246              $37,673,000           N/A

          Total            1,317,461                 $3,739,333,819            $658,730,500            $0

 Source: TIGTA analysis of tax returns processed during the 2012 and 2013 Filing Seasons.

The IRS informed us that in reviewing the tax return preparers who appeared to be noncompliant
with the Form 8867 requirement during the 2013 Filing Season, it determined that some of the
missing or incomplete Forms 8867 may be the result of errors in some of the tax preparation
software preparers are using. The IRS later notified us that it had determined that 134,254 tax

11
   TIGTA, Ref. No. 2012-40-119, The Majority of Individual Tax Returns Were Processed Timely, but Not All Tax
Credits Were Processed Correctly During the 2012 Filing Season (Sept. 2012) and TIGTA, Ref. No. 2013-40-124,
Late Legislation Delayed the Filing of Tax Returns and Issuance of Refunds for the 2013 Filing Season (Sept. 2013).
12
   The 2012 Filing Season is through May 3, 2012; the 2013 Filing Season is through May 2, 2013; and the
2014 Filing Season was through May 1, 2014.
13
   The number of tax returns for both the 2013 and 2014 Filing Seasons includes both missing and incomplete
Forms 8867.
                                                                                                         Page 11
                                Key Tax Provisions Were Implemented
                                 Correctly for the 2014 Filing Season



returns prepared by 47,070 tax return preparers did not include a Form 8867 during the
2013 Filing Season. The IRS informed us that on January 24, 2014, it sent 778 of the 47,070 tax
return preparers a penalty letter proposing penalties totaling more than $13 million. The IRS
only sent penalty letters to those preparers who had received a warning letter at the conclusion of
the 2012 Filing Season and who filed 10 or more tax returns claiming the EITC during the
2013 Filing Season. Tax return preparers had 30 calendar days to respond to the penalty letter
and request an Appeals hearing. The IRS is currently in various stages of reviewing and
analyzing the 778 penalty proposals, but as of June 30, 2014, no penalties have been assessed.
As in previous filing seasons, the IRS indicated that it is identifying tax returns filed without a
completed Form 8867 throughout the 2014 Filing Season and will assess due diligence penalties
against noncompliant tax return preparers at the completion of the filing season. At the
beginning of the 2013 Filing Season, TIGTA suggested notifying paid preparers who are not
complying with the Form 8867 requirement early in the filing season to allow them to become
compliant and thus reduce the amount of the penalty that they will be assessed. The IRS notified
paid preparers this year each time an e-filed return was submitted without a required Form 8867
attached. Paid preparers submitting paper returns without a required Form 8867 attached were
notified by a letter for the first occurrence. According to the IRS, 6,667 letters were sent to
noncompliant preparers as of May 1, 2014. In addition, the IRS issued 1,298 alerts on electronic
returns.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 1: Review the 308,986 tax returns we identified that were prepared by paid
tax return preparers on which it appears the Form 8888 was used to inappropriately direct a
portion of the tax refund to the tax return preparer.
       Management’s Response: The IRS agreed with this recommendation. The IRS has
       reviewed the information provided by TIGTA regarding tax returns for which it appears
       portions of the refunds were inappropriately directed to the tax return preparers.
       On July 28, 2014, the information was provided to the Small Business/Self-Employed
       Division to determine appropriate follow-up actions based on available resources and
       other priorities.
Recommendation 2: Implement computer programming to systemically ensure that
taxpayers’ claims for nonrefundable credits are allowed to the full extent of their regular tax and
alternative minimum tax when applicable.
       Management’s Response: The IRS agreed with TIGTA’s finding; however, the IRS
       disagreed with the recommended corrective action. Computer programming is subject to
       the availability of limited funding and resources and its completion cannot be reasonably
       assured. On April 14, 2014, Servicewide Electronic Research Program Alert 14A0241

                                                                                            Page 12
                                     Key Tax Provisions Were Implemented
                                      Correctly for the 2014 Filing Season



        was issued to remind employees of the procedures to be followed in ensuring that
        nonrefundable credits are not erroneously denied.
        Office of Audit Comment: We believe management should continue to pursue
        systemic computer programming to address the problem we reported. Although
        management indicated that they issued an alert to employees to remind them of the
        procedures to be followed, the errors we identified with the improper reduction of
        nonrefundable credit claims was due to employee error. A systemic process would
        eliminate the risk of continued employee errors.
Recommendation 3: Ensure that EITC due diligence penalties are assessed on all paid tax
return preparers who do not provide a completed Form 8867 when filing a tax return claiming
the EITC.
        Management’s Response: The IRS partially agreed with this recommendation.
        The IRS will continue pursuing assertion of the due diligence penalties under Internal
        Revenue Code Section 6695(g) ****************2********************
        *********************2************. The IRS will also continue outreach efforts
        to all paid preparers to promote compliance, ********2*********************
        **************************2****************************.
        Office of Audit Comment: IRS management did not agree to pursue due diligence
        penalties on those preparers who provide a Form 8867 that is incomplete. Their focus is
        solely on those preparers who have not attached a Form 8867. Section 1.6695-2 of Title
        26 of the Code of Federal Regulations requires tax return preparers to complete Form
        8867 when filing a return with the EITC and IRS instructions for Form 8867 clearly state
        that the tax return preparer may be subject to the due diligence penalty if specific sections
        of the Form 8867 are not completed.
        In addition, in its response the IRS states that TIGTA’s number of tax return preparers
        who failed to comply with EITC due diligence requirements is higher than the IRS’s
        figures for Tax Years 2012 and 2013. The difference is that the IRS’s figures incorrectly
        include only those tax return preparers with no Form 8867 attached to a filed tax return,
        whereas our figures include tax returns for which tax return preparers did not include the
        Form 8867 or included an incomplete Form 8867.

Detecting and Preventing Tax Refund Fraud
As of May 3, 2014, the IRS reported that it identified 268,233 tax returns with more than
$1.48 billion14 claimed in fraudulent refunds and prevented the issuance of more than
$1.32 billion (88.9 percent) of those refunds. Figure 5 shows the number of fraudulent tax

14
  The IRS indicated that of the $1.48 billion claimed and $1.32 billion stopped in fraudulent refunds, ******1***
*************1***************.
                                                                                                          Page 13
                                    Key Tax Provisions Were Implemented
                                     Correctly for the 2014 Filing Season



returns identified by the IRS, including those filed with the Social Security Number of a prisoner
and identity theft tax returns, for Processing Years 2011 through 2013 as well as the refund
amounts that were claimed and stopped.
                       Figure 5: Fraudulent Returns and Refunds Identified
                       and Stopped in Processing Years 2011 Through 2013

                    Number of                                         Amount of
                    Fraudulent               Number of                Fraudulent          Amount of
  Processing      Refund Returns         Fraudulent Refund              Refunds           Fraudulent
     Year            Identified           Returns Stopped              Identified      Refunds Stopped

     2011            2,176,657                1,756,242            $16,186,395,218     $14,353,795,007

     2012            3,422,505                3,110,788            $20,721,203,369     $19,247,812,922

     2013            2,556,935                2,360,180            $16,456,632,993     $15,690,434,978

Source: IRS fraudulent tax return statistics for Processing Years 2011 through 2013.

Overall, the decrease in the number of fraudulent tax refunds, including prisoner and identity
theft tax returns, the IRS detected and stopped in Processing Year 2014 may be attributed to
expanded IRS processes to prevent fraudulent tax returns from entering the tax processing
system (i.e., rejecting attempts to e-file a fraudulent tax return). According to the IRS, expanded
use of controls to identify fraudulent refund claims before they are accepted into the processing
system had identified more than 1.28 million fraudulent tax returns as of April 30, 2014. We are
unable to determine the dollar amount of fraudulent refunds the IRS protected as a result of its
efforts to prevent fraudulent tax returns from entering the processing system because this
information is not captured by the IRS.

Detection of tax returns involving identity theft
The IRS continues to expand identity theft filters to identify fraudulent tax returns at the time
they are processed. The IRS expanded the number of identity theft filters it uses to identify
potentially fraudulent tax returns and prevent the issuance of fraudulent tax refunds from
80 filters during Processing Year 2013 to 114 filters during Processing Year 2014. The identity
theft filters incorporate criteria based on characteristics of confirmed identity theft tax returns.
These characteristics include amounts claimed for income and withholding, filing requirements,
prisoner status, taxpayer age, and filing history.
Tax returns identified by these filters are held during processing until the IRS can verify the
taxpayer’s identity. The IRS attempts to contact the individual who filed the tax return and, if
this individual’s identity cannot be confirmed, the IRS removes the tax return from processing.
This prevents the issuance of many fraudulent tax refunds. As of April 30, 2014, the IRS
reported that it identified and confirmed 236,313 fraudulent tax returns and prevented the

                                                                                                Page 14
                                  Key Tax Provisions Were Implemented
                                   Correctly for the 2014 Filing Season



issuance of nearly $1.2 billion in fraudulent tax refunds as a result of the identity theft filters.
Figure 6 shows the number of identity theft tax returns the IRS identified and confirmed as
fraudulent in Processing Years 2012 through 2014.
                      Figure 6: Identity Theft Tax Returns Confirmed
                          As Fraudulent in Processing Years 2012
                         Through 2014 (as of April 30 of each year)

                            Processing                     Number of
                               Year                  Identity Theft Returns

                                2012                          591,746

                                2013                          382,398

                                2014                          236,313

                         Source: IRS fraudulent tax return statistics for Processing
                         Years 2012 through 2014 as of April 30, 2014.

We are currently conducting a review of the IRS’s efforts to detect and prevent identity theft.
We are also conducting a separate review of the IRS’s efforts to assist victims of identity theft.
We will issue these reports later this fiscal year.

Screening of prisoner tax returns
As of May 3, 2014, the IRS reports that it identified 63,087 potentially fraudulent tax returns
filed with prisoner Social Security Numbers for screening. Figure 7 shows the number of
prisoner tax returns identified for screening in Processing Years 2012 through 2014.
                          Figure 7: Prisoner Tax Returns Identified
                           for Screening in Processing Years 2012
                               Through 2014 (as of May 3, 2014)

                                                      Number of Prisoner
                            Processing               Tax Returns Identified
                               Year                      for Screening

                                2012                          98,441

                                2013                          69,258

                                2014                          63,087

                         Source: IRS fraudulent tax return statistics for Processing
                         Years 2012 through 2014 as of May 3, 2014.

                                                                                                Page 15
                                Key Tax Provisions Were Implemented
                                 Correctly for the 2014 Filing Season



We are currently conducting a separate review of the IRS’s efforts to improve the detection and
prevention of prisoner tax fraud and plan to issue a report later this fiscal year.

Providing Customer Service
Taxpayers have several options to choose from when they need assistance from the IRS,
including telephone assistance through the toll-free telephone lines, face-to-face assistance at the
Taxpayer Assistance Centers (TAC) and/or Volunteer Program sites, and self-assistance through
IRS.gov and social media channels.

Face-to-face assistance at the TACs
Each year, many taxpayers seek assistance from one of the IRS’s 388 walk-in offices, called
TACs. However, the IRS estimates that the number of taxpayers it will assist at its TACs will
decrease this fiscal year. The IRS assisted more than 6.5 million taxpayers in Fiscal Year 2013
and plans to assist 5.6 million taxpayers in Fiscal Year 2014, which is 14 percent fewer than in
Fiscal Year 2013. From January 1 through April 30, 2014, the IRS assisted 2,276,462 taxpayers
at its TACs.
The IRS indicated that budget cuts and its strategy of not offering services at TACs that can be
obtained through other service channels, such as the IRS’s website, resulted in the reduction of
the number of taxpayers the IRS plans to assist at the TACs. Furthermore, in Fiscal Year 2014,
the IRS eliminated or reduced services at TACs. For example, TACs are no longer preparing tax
returns. Taxpayers seeking this assistance will be referred to Volunteer Income Tax Assistance
sites or other free preparation options for assistance. TAC assistors will only answer basic tax
law questions during the filing season and will not answer any tax law questions after April 15,
2014. After April 15, 2014, the IRS will direct all tax law inquiries to alternative services such
as IRS.gov, Tele-Tax, commercial software packages, or a tax professional. In addition, TACs
will no longer answer taxpayers’ tax refund inquiries unless the taxpayer has waited more than
21 days for the refund. Taxpayers with refund inquiries will be referred to the “Where’s My
Refund?” application on IRS.gov. Finally, the TACs are transitioning to no longer provide
transcripts upon request without extenuating circumstances. For the 2014 Filing Season, TACs
will still provide transcripts but are encouraging taxpayers to obtain them through the IRS’s
online application “Get Transcript” on IRS.gov. Figure 8 shows the number of contacts by
product line at the TACs for Fiscal Years 2012 through 2014.




                                                                                            Page 16
                                     Key Tax Provisions Were Implemented
                                      Correctly for the 2014 Filing Season



                                Figure 8: Contacts for Fiscal Years
                                  2012 Through 2014 (in millions)

                                                                    Fiscal Year
                  Contacts/Product Lines
                                                                                     2014
                                                         2012          2013       Projections

                  Tax Accounts Contacts                    4.3          4.4            3.6

                  Forms Contacts                           0.6          0.5            0.4

                  Other Contacts15                         1.7          1.5            1.5

                  Tax Law Contacts                         0.2          0.2            0.1

                  Tax Returns Prepared16                  N/A          N/A            N/A

                  Totals                                   6.8          6.5            5.6

                Source: IRS management information reports. Totals shown are rounded.

We recently issued a separate review of the effectiveness and efficiency of the TAC Program.17

Toll-free telephone assistance
As of May 3, 2014, approximately 65 million taxpayers contacted the IRS by calling various
Accounts Management toll-free telephone assistance lines seeking help to understand the tax law
and meet their tax obligations.18 The IRS answered more than 30.4 million calls through
automated scripts and more than 11 million calls by an IRS assistor. The Average Speed of
Answer for an IRS assistor-answered telephone call was 14.4 minutes. Figure 9 shows a
comparison of the Accounts Management toll-free telephone statistics through May 3, 2014, for
Fiscal Years 2012 through 2014.




15
   Other Contacts includes but is not limited to: Form 2063, U.S. Departing Alien Income Tax Statement,
date-stamping tax returns brought in by taxpayers, screening taxpayers for eligibility of service, scheduling
appointments, and helping taxpayers with general information such as addresses and directions to other IRS offices
or other Federal Government agencies.
16
   In Fiscal Years 2012, 2013, and 2014, Tax Returns Prepared is included in Other Contacts.
17
   TIGTA, Ref. No. 2014-40-038, Processes to Determine Optimal Face-to-Face Taxpayer Services, Locations, and
Virtual Services Have Not Been Established (June 2014).
18
   The IRS refers to the suite of 29 Accounts Management function telephone lines to which taxpayers can make
calls as “Accounts Management Toll-Free.”
                                                                                                         Page 17
                                      Key Tax Provisions Were Implemented
                                       Correctly for the 2014 Filing Season



                   Figure 9: Toll-Free Filing Season Telephone Statistics
                   for Fiscal Years 2012 Through 2014 (as of May 3, 2014)

                                                                                  Fiscal Year
     Statistic
                                                                     2012              2013             2014

 Total Calls Received                                            90,014,692        82,517,568        65,096,176

 Total Calls Not Answered19                                      31,636,293        27,049,782        23,430,679

 Total Calls Answered                                            58,011,624        55,375,127        41,509,124

        Calls Answered by Assistors                              14,620,233        15,609,615        11,061,209

        Automated Calls Answered                                 43,391,391        39,765,512        30,447,915

 Calls Unable to be Categorized20                                  366,775            92,659           156,373
Source: IRS Toll-Free Reports as of May 3, 2014.

As of May 3, 2014, the IRS reported a 70.8 percent Level of Service for calls answered by an
assistor. However, the IRS Level of Service only measures the percentage of total telephone
calls forwarded to an assistor line that are ultimately answered. In addition, the IRS can manage
its reported Level of Service by increasing or decreasing the number of calls it allows in to the
assistor queue.

Tax preparation assistance at Volunteer Income Tax Assistance Program sites
The Volunteer Income Tax Assistance Program continues to play an important role in the IRS’s
efforts to improve taxpayer service and facilitate participation in the tax system. It provides
no-cost Federal tax return preparation and e-filing to underserved taxpayer segments, including
low-income, elderly, persons with disabilities, rural, Native Americans, and limited-English
proficient taxpayers. As of May 4, 2014, more than 3.5 million tax returns have been prepared at
the 12,319 Volunteer Program sites nationwide. Figure 10 shows the number of tax returns
prepared by volunteers for Fiscal Years 2012 through 2014 as of May 4.




19
   Includes calls received during non-business hours. Total calls received during non-business hours totaled
6,553,018 during FY 2012, 5,642,483 during FY 2013, and 4,648,780 as of May 3, 2014.
20
   The IRS phone system recorded the call attempt but was unable determine the final disposition.
                                                                                                           Page 18
                                       Key Tax Provisions Were Implemented
                                        Correctly for the 2014 Filing Season



                              Figure 10: Volunteer Program Statistics
                               for Calendar Years 2012 Through 2014

                                                                                       Percentage Change
                         Calendar Year        Calendar Year        Calendar Year       (Fiscal Year 2013 to
                             2012                 2013                 2014             Fiscal Year 2014)

      Tax Returns21       3,167,183             3,296,058           3,533,908                     7.2%

      Volunteers              98,978               91,820               93,082                    1.4%

      Sites                 13,14322               13,081               12,319                   -5.8%

       Source: IRS management information system containing Fiscal Years 2012 through 2014 information.
       Percentages are rounded.

Self-assistance through IRS.gov and social media channels
The IRS continues to offer more self-assistance options that taxpayers can access 24 hours a day,
seven days a week. For example, the IRS offers IRS2Go, which is a mobile application that lets
                               taxpayers interact with the IRS using their mobile device to access
                               information and a limited number of IRS tools. In addition, the IRS
                               uses various forms of social media including YouTube, Twitter,
                               Tumblr, and Facebook. As of April 30, 2014, the IRS reported
approximately 2.75 million new downloads and updates of its IRS2Go mobile application, for a
total of 6.2 million since its inception. As of April 30, 2014, there have been more than 1 million
new views of IRS YouTube videos and a 12 percent increase in Twitter followers, for a total of
85,882 total followers.
Foremost is the IRS’s public Internet site, IRS.gov. The IRS reports 284.8 million visits to
IRS.gov through May 3, 2014. One of the most recent online applications added to IRS.gov is
the “Get Transcript” option. As of April 30, 2014, the IRS reports over 5.9 million taxpayers
used this option. In addition, the IRS reports that more than 169 million taxpayers obtained their
refund information online via the “Where’s My Refund?” application found on IRS.gov. Our
review of the “Where’s My Refund?” application confirmed that the application provided
taxpayers with accurate information. Figure 11 shows the year-to-date comparisons of various
IRS.gov activity levels for the 2011 through 2014 Filing Seasons.




21
   The Calendar Year 2014 tax returns are through May 4, 2014; the Calendar Year 2013 tax returns are through
May 5, 2013; and the Calendar Year 2012 returns are through May 6, 2012.
22
   The Tax Returns and Sites totals do not include tax returns prepared using Facilitated Self-Assistance kiosks.
                                                                                                            Page 19
                                    Key Tax Provisions Were Implemented
                                     Correctly for the 2014 Filing Season



                  Figure 11: Year-to-Date Comparisons of the IRS.gov
                Activity Levels for the 2012 Through 2014 Filing Seasons23

                                             2012 Actual       2013 Actual       2014 Actual


                 IRS.gov Visits              250,654,312       312,001,989      284,825,618

                 “Where’s My Refund?”        113,674,118       176,932,855      169,767,248

                Source: IRS 2011 through 2014 Weekly Filing Season reports.

Some self-assistance tools were not timely updated with the most current tax information
Although the IRS is increasing its reliance on self-assistance options to help taxpayers, not all of
the self-assistance tools were updated with the most current tax information before the filing
season began. For example, in January 2014, the IRS promoted (“tweeted” via Twitter) its
self-service interactive tools available on IRS.gov. A review of those tools found that 25 of the
28 tools promoted by the IRS were not updated to reflect Tax Year 2013 information.
The majority of the tools that were not updated are available through the Interactive Tax
Assistant. The Interactive Tax Assistant tool is a tax law resource that takes users through a
series of questions and provides them with responses to tax law questions. The IRS did provide
users of those tools with a disclaimer on the homepage of the Interactive Tax Assistant that read:
        The tool is currently being updated for tax year 2013. Be aware that using the
        2012 tax year will generally provide a correct answer, however changes to
        income and adjusted gross incomes include thresholds for 2013 [and] may result
        in an incorrect answer if those thresholds are applicable.
We informed the IRS of our concerns with the accuracy of the self-assistance tools on
January 30, 2014. On February 13, 2014, IRS management responded to our concerns,
explaining that the IRS’s education and communication process starts in advance of the start of
tax return processing and involves raising visibility or awareness about the availability of a
general service or product even before the service is available. The “go-live” dates for tools vary
but are optimally current before or when the filing season opens. According to the IRS, highly
specialized training is required to properly develop and maintain the self-assistance tools. The
sequester and the Federal Government shutdown along with newly enacted travel restrictions for
specialized training negatively affected the IRS’s implementation plan for delivery of these
topics. IRS management also informed us that the IRS is in the process of updating the



23
  The 2011 Filing Season is through May 5, 2011; the 2012 Filing Season is through May 5, 2012; the 2013 Filing
Season is through May 3, 2013; and the 2014 Filing Season is through May 2, 2014.
                                                                                                       Page 20
                                Key Tax Provisions Were Implemented
                                 Correctly for the 2014 Filing Season



self-assistance tools. As of June 25, 2014, we confirmed that the self-assistance tools were
updated.

YouTube videos were not updated with the most current tax information
We reviewed the YouTube videos available on the IRS YouTube channels for 18 tax subjects
that directly relate to the 2014 Filing Season. When exceptions were noted, we also reviewed the
American Sign Language version of the videos. We found that the following videos were
outdated and therefore contained inaccurate information:
      Medical and Dental Expenses – the video did not include the new 10 percent of AGI
       restriction for taxpayers under age 65.
      Gift Taxes – the video stated that the gift exemption is $13,000, but for Tax Year 2013,
       the correct amount is $14,000.
      Do I have to File a Tax Return? – the video states that single taxpayers who earned a
       little more than $9,000 need to file, but that figure is now $10,000.
We notified the IRS of our concerns with the YouTube videos on February 6, 2014. On
February 12, 2014, IRS management informed us that they are in the process of updating the
YouTube videos we identified, and the outdated versions of the videos were removed from
IRS.gov. The IRS released a new and accurate Medical and Dental Expenses video on
February 25, 2014. As of June 23, 2014, the remaining two videos have not been updated.
Figure 12 provides examples of the extensiveness of the tax topics available to taxpayers via
IRS’s interactive self-help tools and YouTube videos.




                                                                                          Page 21
                                 Key Tax Provisions Were Implemented
                                  Correctly for the 2014 Filing Season



             Figure 12: Interactive Self-Help Tools and YouTube Videos

              Interactive Self-Help Tools                       IRS YouTube Videos Reviewed
    Do I Need to File a Tax Return?                               Medical and Dental Expenses
    Who Can I Claim as a Dependent?                               Do I Have To File a Tax Return?
    How Much Can I Deduct for Each Exemption I Claim?             Gift Tax
    What is My Filing Status?                                     First-Time Homebuyer Credit
    What is the simplest form to use to file my taxes?             Account Look-Up Tool
    How Do I File a Deceased Person’s Tax Return?                 IRS Withholding Calculator
    Can I Claim My Personal and/or Spousal Exemption?             Selling Your Home
    How Much is My Standard Deduction?                            Standard Versus Itemized
    Can I Deduct My Charitable Contributions?                      Deductions
    Can I Deduct My Mortgage Related Expenses?                    Split Refunds–Savings Bonds
    Can I Claim My Expenses as Miscellaneous Itemized             Year-End Tax Tips – 2013
     Deductions on Schedule A (Form 1040)?                         Charitable Contributions
    Do I Need To Claim My Gambling Winnings and                   Earned Income Tax Credit
     Can I Deduct My Gambling Losses?                              Education Tax Credits
    Can I Deduct My Medical and Dental Expenses?                  Education Tax Credits and
    Can I Deduct My Moving Expenses?                               Deductions
    Can I Claim a Deduction For Student Loan Interest?            Estimated Tax Payments
    Am I Eligible for the Child Tax Credit?                       Home Office Deduction
    Am I Eligible to Claim an Education Credit?                   Additional Medicare Tax
    Do I Qualify for the Credit for the Elderly or Disabled?      IRS Free File
    Am I Eligible for the Making Work Pay Credit or               Is Social Security Taxable?
     Government Retiree Credit?
    Is My Pension or Annuity Payment Taxable?
    Are My Social Security or Railroad Retirement Tier I
     Benefits Taxable?
    Do I Have Cancellation of Debt Income on My Personal
     Residence?
    Is My Residential Rental Income Taxable and/or Are
     My Expenses Deductible?
    Earned Income Tax Credit (EITC) Assistant
    Sales Tax Deduction Calculator
    Alternative Minimum Tax Assistant
    First-Time Homebuyer Credit Account Look-up
    Where’s My Refund?
Source: www.YouTube.com and www.IRS.gov.

                                                                                            Page 22
                                    Key Tax Provisions Were Implemented
                                     Correctly for the 2014 Filing Season



Accounts Management function over-age correspondence inventory continues
to grow
The over-age correspondence inventory rose from approximately 181,000 at the end of
Processing Year 2010 to almost 1.19 million at the end of Processing Year 2013, representing an
increase of 556 percent.24 As of June 14, 2014, the over-age correspondence inventory totaled
855,860. Correspondence inventory includes but is not limited to amended tax returns, responses
to taxpayer notices, identity theft cases, and applications for Individual Taxpayer Identification
Numbers and is considered over-aged when it has been in inventory for more than 45 calendar
days. Figure 13 provides a comparison of the correspondence inventory for Processing Years
2010 through 2014 as of June 14, 2014.
                   Figure 13: Comparison of Correspondence Inventory
                         for Processing Years 2010 Through 2014

                                                                                                      2014
                                                                                                      (as of
                             2010               2011               2012              2013         June 14, 2014)


Total Inventory           1,292,453           2,013,556          2,401,845         2,580,527        2,364,643

Over-Age Volume             180,938             605,739            592,536         1,187,255          855,860

Percent Over-Aged             14.0%               30.1%              24.7%             46.0%            36.2%

Source: IRS Accounts Management Inventory Report – Inventory Age Reports.

IRS management indicated that the continued increase in the over-age correspondence inventory
is the result of reduced Accounts Management function resources. According to IRS
management, allocating these limited resources requires difficult decisions to handle the
numerous programs throughout the Accounts Management function. IRS management stated
that their focus has been to maximize taxpayer assistance on the toll-free telephone lines during
filing season while concentrating any remaining resources toward various priority programs such
as identity theft and aged work. The IRS anticipates additional resource availability for the
remaining inventory types as a result of continued reduction in identity theft inventories and
additional benefits derived from the IRS’s demand management strategies.
IRS management raised concerns with the inclusion of internal notices in our calculation of the
correspondence over-age inventory. The IRS indicated these notices are generated internally to
alert the IRS that action is needed on a taxpayer’s account and are not the result of a taxpayer
contacting the IRS. We do not agree that these notices should be excluded from the IRS’s
correspondence over-age inventory because they are included in the IRS’s correspondence


24
  Numbers have been rounded. The percentage of change is based on the actual inventory volumes as of the end of
Processing Years 2010 and 2013. See Figure 13 for actual inventory volumes.
                                                                                                       Page 23
                              Key Tax Provisions Were Implemented
                               Correctly for the 2014 Filing Season



program and tracked by the IRS as part of that program’s over-age inventory. Therefore,
including these notices is consistent with the IRS’s own inventory tracking for the
correspondence inventory.
We are planning to conduct a separate review of the IRS’s processing of Accounts Management
function correspondence during Fiscal Year 2015.

Recommendations
Recommendation 4: The Commissioner, Wage and Investment Division, should ensure that
YouTube videos on Gift Taxes and Do I Have to File a Tax Return are updated with the most
current tax information.
       Management’s Response: The IRS agreed with this recommendation and will
       coordinate with National Office Media Relations and Corporate Television to update both
       of these YouTube videos.




                                                                                          Page 24
                                       Key Tax Provisions Were Implemented
                                        Correctly for the 2014 Filing Season



                                                                                      Appendix I

            Detailed Objective, Scope, and Methodology

Our overall objective was to evaluate whether the IRS timely and accurately processed
individual paper and e-filed tax returns during the 2014 Filing Season.1
I.         Identified the volume of paper and e-filed tax returns received through May 2, 2014, from
           the IRS Weekly Filing Season reports that provide a year-to-date comparison of
           scheduled return receipts to actual return receipts. The reports also provide a comparison
           to Fiscal Year 2013 receipts for the same period.
II.        Monitored online news outlets and forums to identify any preparation, filing, or
           processing issues that taxpayers are experiencing.
III.       Determined if the IRS has correctly implemented selected tax legislation that affects the
           processing of individual taxpayer returns during the 2014 Filing Season.
           A. The indexed alternative minimum tax adjustment.
           B. Estate and gift taxes.
           C. The requirement for vehicle identification numbers to be 17-digits long in order to
              claim the Plug-in Drive Motor Vehicle Credit.
           D. The new 39.6 percent tax bracket for high-income earners.
           E. The increased capital gains and dividend rate to 20 percent for high-income earners.
           F. The Pease limitation and personal exemption phase-out for high-income earners.
           G. The medical expense deduction increase from 7.5 percent of AGI to 10 percent of
              AGI for individuals under age 65.
           H. Surtax on net investment income, Form 8960, Net Investment Income Tax –
              Individuals, Estates, and Trusts.
           I. Additional Medicare Tax, Form 8959, Additional Medicare Tax.
           J. All legal same-sex marriages will be recognized for Federal tax purposes.




1
    See Appendix IV for a glossary of terms.
                                                                                              Page 25
                                         Key Tax Provisions Were Implemented
                                          Correctly for the 2014 Filing Season



IV.        Followed up on findings previously reported by TIGTA to ensure that the IRS has taken
           the agreed-upon action to resolve the issues.
           A. Evaluated the IRS’s efforts to assess EITC due diligence penalties on paid tax return
              preparers who did not comply with the Form 8867, Paid Preparer’s Earned Income
              Credit Checklist, during Tax Year 2012. In addition, we assessed paid tax return
              preparers’ compliance with the Form 8867 requirements during the 2014 Filing
              Season.
           B. Assessed the IRS’s efforts to address individuals’ and/or paid tax return preparers’
              misuse of the split refund option to redirect a portion of a tax refund for the payment
              of tax return preparer services.
V.         Identified online self-help applications provided by the IRS and ensured that the
           information and results provided are accurate.
           A. Determined that the “Where’s My Refund” application on www.IRS.gov provided
              accurate information by tracking a judgmental sample2 of 20 tax returns, received on
              February 16, 2014, through processing and comparing what showed on the Integrated
              Data Retrieval System to the results provided by the application. We used
              judgmental sampling to select the returns because we did not plan to project our
              results.
           B. Determined if the YouTube videos from the IRS YouTube channels for 18 tax
              subjects accurately presented information applicable to Tax Year 2013.
           C. Determined if 28 Internet applications and calculators offered by the IRS related to
              the tax items for the 2014 Filing Season accurately reflect information applicable to
              Tax Year 2013.
VI.        Determined if the IRS monitoring systems indicate that individual tax returns are being
           processed timely and accurately.
           A. Attended weekly Wage and Investment Division Filing Season Production Meetings
              to keep informed on any issues occurring nationwide.
           B. Monitored the IRS Submission Processing website, the IRS public website, and other
              applicable websites to identify significant issues or new tax legislation passed after
              the filing season begins that may impact processing of Tax Year 2013 individual tax
              returns.
VII.       Compiled statistical information that is of interest to external stakeholders.
           A. Quantified fraudulent tax returns and tax returns filed by prisoners.


2
    A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
                                                                                                               Page 26
                                Key Tax Provisions Were Implemented
                                 Correctly for the 2014 Filing Season



        B. Determined whether individuals are using the savings bond option for direct purchase
           of savings bonds from their refunds.
        C. Determined whether individuals have significantly increased their use of the split
           refund option for depositing their refunds.
VIII.   Identified results for the TAC Program.
        A. Obtained statistics of taxpayers served at the TACs from the IRS Field Assistance
           Office.
        B. Reviewed the IRS Weekly Filing Season reports, which provide a year-to-date
           comparison of various TAC activity levels for Fiscal Years 2011 through 2014.
IX.     Identified results for the Toll-Free Telephone Assistance Program.
X.      Identified results for the Volunteer Income Tax Assistance Program by reviewing weekly
        reports from the Stakeholder Partnership, Education & Communication organization.
XI.     Identified results for IRS self-assistance through IRS.gov from the IRS Weekly Filing
        Season reports of IRS.gov activity levels for the 2011 through 2014 Filing Seasons.
XII.    Identified results for the Accounts Management function correspondence inventory by
        reviewing Joint Operation Center inventory reports for the Accounts Management
        function.
Data Reliability
To assess the reliability of computer-processed data residing on the TIGTA Data Center
Warehouse, computer programmers in the TIGTA Office of Strategic Data Services validated the
data that were extracted, and we verified the data with appropriate documentation. In addition,
we selected and reviewed judgmental samples to ensure that the tax return data contained in the
applicable TIGTA Data Center Warehouse files were supported by external sources. We found
the data to be sufficiently reliable.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined that the
following internal controls were relevant to our audit objective: the processes for planning,
organizing, directing, and controlling program operations for the 2014 Filing Season. We also
evaluated the controls that are incorporated directly into computer applications to help ensure the
validity, completeness, accuracy, and confidentiality of transactions and data during application
processing of tax returns for the 2014 Filing Season.


                                                                                           Page 27
                               Key Tax Provisions Were Implemented
                                Correctly for the 2014 Filing Season



                                                                                Appendix II

                 Major Contributors to This Report

Russell P. Martin, Acting Assistant Inspector General for Audit (Returns Processing and
Account Services)
Deann L. Baiza, Director
Bill R. Russell, Audit Manager
Lance J. Welling, Lead Auditor
W. George Burleigh, Senior Auditor
John L. Hawkins, Senior Auditor
Laura P. Haws, Senior Auditor
Mark V. Willoughby, Senior Auditor
Michelle S. Cove, Assistant Director, Information Technology Specialist
James M. Allen, Information Technology Specialist
Joseph C. Butler, Information Technology Specialist
Donald J. Meyer, Information Technology Specialist
Kevin O’Gallagher, Information Technology Specialist
Steven E. Vandigriff, Information Technology Specialist
Jeffrey E. Williams, Information Technology Specialist




                                                                                          Page 28
                              Key Tax Provisions Were Implemented
                               Correctly for the 2014 Filing Season



                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Business Modernization Office, Wage and Investment Division SE:W:BMO
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Program Evaluation and Improvement, Wage and Investment Division SE:W:S:PEI
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Field Assistance, Wage and Investment Division SE:W:CAR:FA
Director, Joint Operation Center, Wage and Investment Division SE:W:CAS:JOC
Director, Stakeholder Partnership, Education, and Communications, Wage and Investment
Division SE:W:CAR:SPEC
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Director, E-File Services, Wage and Investment Division SE:W:CAS:SP:eFS
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Chief Counsel CC
National Taxpayer Advocate TA
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Program Evaluation and Improvement, Wage and Investment Division
SE:W:S:PEI




                                                                                     Page 29
                       Key Tax Provisions Were Implemented
                        Correctly for the 2014 Filing Season



                                                                              Appendix IV

                        Glossary of Terms

Adjusted Gross      Gross income minus adjustments to income.
Income
Average Speed of    The average number of seconds taxpayers waited in the assistor queue
Answer              (on hold) before receiving services.

Earned Income Tax   A refundable Federal tax credit for low-income working individuals and
Credit              families.

Facilitated         An initiative to provide self-help assistance kiosks at the TACs. The
Self-Assistance     kiosks can be used by taxpayers to access IRS.gov to file their tax
                    returns, print tax forms and publications, or conduct tax research.
Filing Season       The period from January 1 through mid-April when most individual
                    income tax returns are filed.
First-Time          A refundable Federal tax credit for individuals who purchase a home.
Homebuyer Credit
Fiscal Year         Any yearly accounting period, regardless of its relationship to a calendar
                    year. The Federal Government’s fiscal year begins on October 1 and
                    ends on September 30.
Free File           A free Federal tax preparation and e-filing program for eligible taxpayers
                    developed through a partnership between the IRS and the Free File
                    Alliance LLC. The Alliance is a group of private sector tax software
                    companies.
Individual Master   The IRS database that maintains transactions or records of individual tax
File                accounts.

Individual Return   A database the IRS maintains that contains information on the individual
Transaction File    returns it receives.

Level of Service    The primary measure of service to taxpayers. It is the relative success
                    rate of taxpayers who call for live assistance on the IRS toll-free
                    telephone lines.
Processing Year     The calendar year in which the return or document is processed by the
                    IRS.




                                                                                        Page 30
                         Key Tax Provisions Were Implemented
                          Correctly for the 2014 Filing Season



Sequester             About $1 trillion in automatic, arbitrary across the board budget cuts that
                      started to take effect in Fiscal Year 2013.
Submission            The data processing arm of the IRS. The sites process paper and
Processing Site       electronic submissions, correct errors, and forward data to the
                      Computing Centers for analysis and posting to taxpayer accounts.
Tax Year              The 12-month period for which tax is calculated. For most individual
                      taxpayers, the tax year is synonymous with the calendar year.
Taxpayer Assistance   Walk-in sites where taxpayers can obtain answers to both account and
Centers               tax law questions as well as receive assistance in preparing their tax
                      returns.
Volunteer Program     Includes the Volunteer Income Tax Assistance Program, including the
                      Volunteer Income Tax Assistance Grant Program and the Tax
                      Counseling for the Elderly Program. The Volunteer Program provides
                      free tax assistance to persons with low to moderate income (generally
                      $52,000 and below), the elderly, persons with disabilities, rural, Native
                      Americans, and persons with limited-English proficiency.




                                                                                          Page 31
           Key Tax Provisions Were Implemented
            Correctly for the 2014 Filing Season



                                                   Appendix V

Management’s Response to the Draft Report




                                                        Page 32
                                  Key Tax Provisions Were Implemented
                                   Correctly for the 2014 Filing Season




concerned about this issue and, in recent years has reached out to other stakeholders
in the refund process, including the Treasury Bureau of the Fiscal Service, which
disburses refunds for the IRS, and the banking industry, to implement controls to stop
the inappropriate diversion of refund checks to anyone other than the taxpayer. To
supplement these efforts, we intend to prevent the electronic deposit of multiple
refunds into the same bank account. Starting January 2015, the number of direct
deposits into a single account or prepaid debit card will be limited to three refunds.
The fourth and subsequent refunds will be converted to paper and mailed. Taxpayers
whose refunds were converted to paper, due to this limit, will receive a notice informing
them to expect a refund check. The notice also will provide identity theft information in
case the taxpayer did not file the return.

We have reviewed the list of refunds the TIGTA identified that may have been
improperly diverted to the accounts of the tax return preparers. It is important to note
that the TIGTA did not identify the owners of the bank accounts and the information
provided on the tax return does not identify the account owner. Also, the TIGTA's
analysis is based on the information that was submitted by the taxpayer, and does not
consider subsequent actions taken during processing that reduced the refund amount
or otherwise prevented it from being paid to the suspect accounts. We found 45,933 of
the 308,986 tax returns identified by the analysis had refunds that were reduced or
eliminated due to other taxes owed, or the refund was used to pay other certified
debts, such as back child support and delinquent student loans, through the Treasury
Offset Program. We also found that some refunds had been returned by the banks
because the payee and the account owner were not the same.

We believe the substantial decrease in the number of paid preparers who failed to
attach the required Form 8867, Paid Preparer's Earned Income Credit Checklist, to
client returns, was a result of our extensive preparer outreach and collaboration with
software developers. We would like to highlight that the number of preparers filing
returns without the Form 8867 attached are lower than the numbers shown in the
report for Tax Years 2012 and 2013, since, as noted in footnote 13, the report includes
returns with incomplete forms as well. Our records show the following:

     For Tax Year 2012, there were 47,070 return preparers who did not attach Form
      8867, compared to the reported 122,133.

     For Tax Year 2013, there were 27,745 return preparers who did not attach the
      form, compared to the reported 29,623.

The potential preparer penalties associated with the returns for missing Forms
8867 would also differ - $240 million for Tax Year 2011, $67 million for Tax Year
2012, and $33 million for Tax Year 2013, compared to $267 million, $354 million
and $38 million, respectively. Further, fewer return preparers prepared
*********2******************* returns claiming the Earned Income Tax Credit. The
respective number of preparers with *********2*********************** returns




                                                                               Page 33
Key Tax Provisions Were Implemented
 Correctly for the 2014 Filing Season




                                        Page 34
Key Tax Provisions Were Implemented
 Correctly for the 2014 Filing Season




                                        Page 35
                                  Key Tax Provisions Were Implemented
                                   Correctly for the 2014 Filing Season




CORRECTIVE ACTION MONITORING PLAN
N/A

RECOMMENDATION 3
Ensure that EITC due diligence penalties are assessed on all paid tax return
preparers who do not provide a completed Form 8867 when filing a tax return
claiming the EITC.

CORRECTIVE ACTION
We will continue pursuing assertion of the due diligence penalties under Internal
Revenue Code section 6695(g) *******************2**********************************
*******************************2***********************************************************
*******************2*************************

IMPLEMENTATION DATE
Implemented

RESPONSIBLE OFFICIAL
Director, Return Integrity and Correspondence Services, Wage and Investment
Division

CORRECTIVE ACTION MONITORING PLAN
N/A

Recommendations

RECOMMENDATION 4
The Commissioner, Wage and Investment Division, should ensure YouTube videos
on Gift Taxes and Do I Have to File a Tax Return are updated with the most current
tax information.

CORRECTIVE ACTION
We agree with this recommendation and will coordinate with National Office Media
Relations and Corporate Television to update both of these YouTube videos.

IMPLEMENTATION DATE
January 15, 2015

RESPONSIBLE OFFICIAL
Director, Communications and Liaison, Wage and Investment Division

CORRECTIVE ACTION MONITORING PLAN
We will monitor this corrective action as part of our internal management control
system.




                                                                                   Page 36
